Case: 16-17573

Date Filed: 09/05/2019

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-17573-GG
In Re: CAMP LEJEUNE, NORTH CAROLINA WATER CONTAMINATION LITIGATION.
LEANDRO PEREZ, et al.,
Plaintiffs,
ANDREW STRAW,
JAMES NATHANIEL DOUSE,
ERICA Y. BRYANT,
ROBERT BURNS,
DANIEL J. GROSS, Il,
ROBERT PARK,
SHARON KAY BOLING,
LINDA JONES,
ESTELLE RIVERA,
Plaintiffs - Appellants,
versus

UNITED STATES OF AMERICA,
DEPARTMENT OF THE NAVY,
United States of America,
ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY,
DIVISION DIRECTOR, DEPARTMENT OF ENVIRONMENTAL PROTECTION AGENCY,
DEPARTMENT OF DEFENSE,
SECRETARY OF THE NAVY,
Defendants - Appellees.

Appeal from the United States District Court
for the Northern District of Georgia

•

Case: 16-17573

Date Filed: 09/05/2019

Page: 2 of 2

ON PETITION{Sl FOR REHEARING AND PETITION{Sl FOR REHEARING EN BANC
BEFORE: TJOFLAT, MARTIN and NEWSOM, Circuit Judges.
PERCURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en bane. (FRAP 35) The Petitions for
Panel Rehearing are also denied. (FRAP 40)

ORD-46

